No. 20-695
IN THE

Supreme Court of the United States
LARRY THOMPSON,
v.

Petitioner,

POLICE OFFICER PAGIEL CLARK, SHIELD #28472;
POLICE OFFICER PAUL MONTEFUSCO, SHIELD #10580;
POLICE OFFICER PHILLIP ROMANO, SHIELD #10580;
POLICE OFFICER GERARD BOUWMANS, SHIELD #2102,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

CERTIFICATE OF SERVICE
I, Richard Dearing, certify that I am a member of the Bar of this Court
and that, on February 3, 2021, I caused the Brief in Opposition in this case to
be served by e-mail, on consent, on the following counsel at the email listed:
Amir H. Ali
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
501 H. Street NE, Suite 275
Washington, D.C. 20002
amir.ali@macarthurjustice.org
(202) 869-3434
Counsel for Petitioner
I certify that all parties required to be served have been served.

Dated:

New York, New York
February 3, 2021
/s/ Richard Dearing
RICHARD DEARING
Chief, Appeals Division
NEW YORK CITY LAW DEPARTMENT
100 Church Street
New York, New York 10007
212-356-2500
rdearing@law.nyc.gov

